No. 20-255
IN THE

Supreme Court of the United States
MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
v.
B.L., A MINOR, BY AND THROUGH HER FATHER
LAWRENCE LEVY AND HER MOTHER BETTY LOU LEVY,
Respondents.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of School Discipline Professors as Amici Curiae in Support of Respondents
contains 7,575 words and complies with the word limitation established by Rule
33.1(g)(xiv) of the Rules of this Court.
Dated: March 31, 2021
_/s/ Richard W. Mark___________
Richard W. Mark

